No. ___________

In the
Supreme Court of the United States
____________
SALVADOR DELRIO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
____________
On Petition for a Writ of Certiorari
To the United States Court of Appeals
For the Ninth Circuit
____________
PETITION FOR WRIT OF CERTIORARI
____________

ANDREA RENEE ST. JULIAN
Counsel of Record
12707 High Bluff Dr., Ste. 200
San Diego, California 92130
(858) 792-6366
astjulian@san.rr.com
Counsel for Petitioner,
SALVADOR DELRIO

QUESTIONS PRESENTED
1.

What weight should a court give to a defendant’s essential role
as a mere courier when determining a mitigating-role
adjustment?

2.

Does a district court violate U.S.S.G. § 3B1.2 and a defendant’s
due process right to be sentenced on accurate information
when it denies a mitigating-role adjustment based on
speculative inferences?

PARTIES TO THE PROCEEDINGS
The parties are petitioner, Salvador Delrio, and respondent, United
States of America. All parties appear in the caption of the case on the
cover page.

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

PARTIES TO THE PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v

PETITION FOR WRIT OF CERTIORARI . . . . . . . . . . . . . . . . . . . . . . . 1

OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONSTITUTIONAL PROVISION INVOLVED . . . . . . . . . . . . . . . . . . . 2

STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A.

Mr. Delrio’s Background . . . . . . . . . . . . . . . . . . . . . . . . 3

B.

The Facts Giving Rise to Mr. Delrio’s Conviction, the
Indictment, and Arrest . . . . . . . . . . . . . . . . . . . . . . . . . 5

C.

The District Court’s Preclusion of the Necessity Defense
............................................8

iii

D.

The Plea Agreement and Change of Plea. . . . . . . . . . . 9

E.

The Presentence Report and the Parties’ Sentencing
Positions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
1.

The Office of Probation’s Presentence Report
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

2.

The Government’s Sentencing Position . . . . . . 13

3.

Mr. Delrio’s Sentencing Position . . . . . . . . . . . . 13

F.

Sentencing and the Notice of Appeal . . . . . . . . . . . . . 14

G.

The Appeal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . 16
I.

THE DECISION IN THIS MATTER MAGNIFIES THE
CONFLICT AMONG THE CIRCUITS REGARDING THE
WEIGHT A COURT CAN GIVE A DEFENDANT’S STATUS
AS A COURIER WHEN DETERMINING A MITIGATINGROLE ADJUSTMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

II.

THE DISTRICT COURT VIOLATED U.S.S.G. § 3B1.2 AND
MR. DEL RIO’S DUE PROCESS RIGHT TO BE SENTENCED
ON ACCURATE INFORMATION WHEN IT DENIED HIM A
MITIGATING ROLE ADJUSTMENT BASED SIMPLY ON
SPECULATIVE INFERENCES. . . . . . . . . . . . . . . . . . . . . 23

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

APPENDICES
Appendix A
iv

November 2, 2020, Memorandum of the Ninth Circuit Court of
Appeals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2a
Appendix B
September 24, 2018, Judgment of U.S. District Court, Central
District of California . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8a

v

TABLE OF AUTHORITIES
CASES:

Townsend v. Burke,
334 U.S. 736 (1948) . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 17, 19
United States v. Alvarado-Martinez,
556 F.3d 732 (9th Cir. 2009) . . . . . . . . . . . . . . . . . . . . . . . . . . 26
United States v. Berry,
258 F.3d 971 (9th Cir. 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . 26
United States v. Cruickshank,
837 F.3d 1182 (11th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . . 25
United States v. Escobar,
866 F.3d 333 (5th Cir. 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . 21
United States v. Gómez-Encarnación,
885 F.3d 52 (1st Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
United States v. Gonzalez,
534 F.3d 613 (7th Cir. 2008) . . . . . . . . . . . . . . . . . . . . . . . . . . 24
United States v. Ibarra,
737 F.2d 825 (9th Cir. 1984) . . . . . . . . . . . . . . . . . . . . . . . . . . 27
United States v. Kluball,
843 F.3d 716 (7th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . 26
United States v. Littlesun,
444 F.3d 1196 (9th Cir. 2006) . . . . . . . . . . . . . . . . . . . . . . . . . 25
vi

United States v. McGowan,
668 F.3d 601 (9th Cir. 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . 27
United States v. Sanchez-Villarreal,
857 F.3d 714 (5th Cir. 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . 21
United States v. Sand,
541 F.2d 1370 (9th Cir.1976) . . . . . . . . . . . . . . . . . . . . . . . . . . 26
United States v. Torres-Hernandez,
843 F.3d 203 (5th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . 21
United States v. Tucker,
404 U.S. 443 (1972) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
United States v. Vanderwerfhorst,
576 F.3d 929 (9th Cir. 2009) . . . . . . . . . . . . . . . . . . . . . . . . . 27
United States v. Watts,
519 U.S. 148 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
United States v. Wilson,
900 F.2d 1350 (9th Cir. 1990) . . . . . . . . . . . . . . . . . . . . . . . . . 25

vii

CONSTITUTIONAL PROVISIONS,
SENTENCING GUIDELINES:

STATUTES,

RULES,

AND

UNITED STATES CONSTITUTION
United States Constitution, Amendment V . . . . . . . . . . . . . . . . . . . . . . 2

FEDERAL STATUTES

28 U.S.C. § 455. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

18 U.S.C. § 3661. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
18 USC § 3553(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19-20
U.S. SENTENCING GUIDELINES
U.S.S.G. § 3B1.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 17, 19, 25

U.S.S.G. § 6A1.3(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

viii

PETITION FOR WRIT OF CERTIORARI
Petitioner, Salvador Delrio, respectfully prays that a writ of
certiorari issue to review the judgment of the Ninth Circuit Court of
Appeals, entered in the instant proceeding on November 2, 2020, Ninth
Circuit Court of Appeal ¹ 19-50230.

OPINIONS BELOW
The United States Court of Appeals for the Ninth Circuit issued an
unpublished memorandum decision in this matter. App. 2a. See United
States v. Delrio, No. 19-50230, 2020 WL 6408751 (9th Cir. Nov. 2,
2020)(unpublished). The district court order from which Mr. Delrio
appealed is also unpublished. App. 8a. See United States v. Delrio, U.S.
District Court, Central District of California ¹

2:18-cr-00686-PA-1.

STATEMENT OF JURISDICTION
The date on which the Ninth Circuit Court of Appeals filed its
Memorandum in the instant matter was November 2, 2020. 1a. This Court
has jurisdiction under 28 U.S.C. § 1254(1).

CONSTITUTIONAL PROVISION INVOLVED
United States Constitution, Amendment V:
No person shall be . . . deprived of life, liberty, or
property, without due process of law . . .

2

STATEMENT OF THE CASE
A.

Mr. Delrio’s Background

Mr. Delrio was born in 1973. His parents were United States citizens
living in Mexico at the time of his birth. Thus, he is a naturalized American
citizen.
Mr. Delrio was raised in San Diego County in a positive family
environment and enjoyed a middle-class upbringing. He played sports in
high school and was on the varsity football and wrestling teams. PSRs1 16.
He completed the 11th grade and later received his GED, eventually
completing five college courses. PSRs 19.
At the age of 17, Mr. Delrio began helping his father with various
construction projects. He subsequently became a licensed forklift driver
and worked in scaffolding, carpentry, and HazMat abatement, working for
a number of construction companies. PSRs 16, 18. Over the years, he

1

“PSRs” refers to the volume of Presentence Reports Filed by
Mr. Delrio with this Court.
3

obtained numerous construction licenses and became a member of a
carpenter’s and flooring union. PSRs 16, 18.
Through his construction and carpentry work, Mr. Delrio suffered a
variety of injuries that has caused him tremendous pain in both of his
wrists and in his shoulders for the last 20 years. In 2017, he was in a car
accident that led him to experience continuing back pain. Because of his
various injuries, Mr. Delrio became unemployed and was without income,
beginning in late 2017. PSRs 18. In April 2017, Mr. Delrio was diagnosed
with PTSD as a result of his years-long stay at Pelican Bay State Prison.
PSRs 17. In early 2018, he began smoking marijuana to aid him with his
various body pains.
Mr. Delrio has been married twice but has no children. Following his
last divorce in 2018, Mr. Delrio began living with his sister and occasionally
with a friend in Mexico. PSRs 16-17.
Mr. Delrio’s parents remain married and live in San Diego. Both
parents are retired. His father was a bus driver and also ran a construction
4

business. PSRs 16. In addition, Mr. Delrio has several siblings who are
gainfully employed and with whom he maintains contact. PSRs 16.

B.

The Facts Giving Rise to Mr. Delrio’s Conviction, the
Indictment, and Arrest

In August and September 2018, agents from the Drug Enforcement
Administration (DEA) used a confidential source (CS) to try to buy drugs
from a supplier located in Tijuana, Mexico, known as “Primo.” On August
22, 2018, Primo and the CS spoke by telephone. During the call, Primo
offered to sell the CS thirty kilograms of methamphetamine and three
kilograms of fentanyl. Primo said he would send someone to Los Angeles,
California to complete the deal. ER 276. Mr. Delrio was completely
uninvolved with Primo or this transaction. ER 208-210.
In September 2018 and as a result of his divorce, Mr. Delrio was living
in Tijuana, Baja California, Mexico with a friend by the name of Roy
Hernandez. Roy and Mr. Delrio were childhood friends.
5

Roy had a brother named Rudy Hernandez who Mr. Delrio had also
known since childhood. In the past, Rudy had helped Mr. Delrio when he
had been in difficult situations. For example, Rudy loaned Mr. Delrio the
$3,500 he needed to hire a divorce attorney. ER 208.
On September 4, 2018, Mr. Delrio traveled to Tijuana to meet with
Roy and pay him his share of the monthly rent. Shortly thereafter, Roy’s
brother, Rudy, arrived and asked Mr. Delrio if he could help him with a
sensitive situation. Rudy explained that a friend of his was supposed to
deliver some drugs to a customer in Los Angeles, California but that the
people who owned the drugs did not trust this friend and were holding
him against his will. ER 208-209.
Rudy asked Mr. Delrio if he could do him the favor of delivering the
drugs. Mr. Delrio decided that although he did not want to get involved in
the situation, he would do this as a favor for Rudy. In this regard, Mr.
Delrio felt that Rudy’s friend's life was in danger, and he was also indebted
to Rudy. ER 209.
6

That same night, Mr. Delrio crossed the border and met with a
woman at a predetermined location near Imperial Beach, California. This
woman gave Mr. Delrio two suitcases. Mr. Delrio then drove to the Los
Angeles, California area, staying in communication with Rudy. The next
morning, Mr. Delrio did as he was told to do and delivered the two
suitcases of drugs to the supposed buyer. ER 209, 276-277.
Mr. Delrio had never met the buyer before. Although he knew he was
transporting drugs, he did not know the exact nature and type of drugs
being delivering. Mr. Delrio only became involved in this offense in order
to save the life of Rudy’s friend. ER 209.
Upon his arrival at the location where the drugs were to be delivered,
Mr. Delrio was arrested for carrying a rolling suit case and duffel bag,
containing approximately 26.84 kilograms of methamphetamine and 3.957
kilograms of fentanyl. ER 160, 277-278. At the time, authorities also found
that Mr. Delrio was carrying a loaded pistol and that both the pistol and the
ammunition had been transported from another state. ER 160, 277. Mr.
7

Delrio had a record that included felony convictions. ER 161, 278.
As a result of his September 5, 2019 arrest, Mr. Delrio was arraigned,
pleading not guilty. ER 293, 297. Based on the government’s requests, the
district court detained Mr. Delrio without bail. ER 296-297, 300, 303-304,
316, 321-323, 326. He thus remained incarcerated throughout the
proceeding. PSRs 4.
Sometime after Mr. Delrio was arrested in this matter, he had a
three-way telephone conversation with Roy Hernandez. During the
telephone conversation, Mr. Hernandez stated that the individual who had
set up the drug deal in Mexico had been killed. Correspondingly, Mr.
Delrio had not heard from Rudy since his arrest. ER 209. In the Spring of
2019, Mr. Delrio learned that his friend, Roy, had been killed in Tijuana,
Mexico. ER 210. See also ER 216-217, 220-228.

C.

The District Court’s Preclusion of the Necessity Defense

On April 1, 2019, Mr. Delrio filed a written offer of proof in support
8

of the necessity defense he sought to raise at trial. ER 202. Mr. Delrio
explained that the only reason he became involved in the offense was to
prevent Rudy Hernandez’s friend from being harmed or killed. ER 203,
206, 208-209. Mr. Delrio explained that the fear someone could be killed if
he did not deliver the drugs was objectively reasonable because at least two
people involved were in fact killed following his arrest in the instant
matter. ER 206.
The government filed a written opposition to Mr. Delrio’s offer of
proof. ER 195. At an April 22, 2019 hearing, the district court concluded, “.
. .for the reasons stated by the Government in its opposition to the proffer,
I don't believe the defense has made a prima facie showing of the defense
of necessity and; therefore, I'm going to preclude the assertion of that
defense at trial.” ER 178. See also, ER 172.

D.

The Plea Agreement and Change of Plea

On April 24, 2019, Mr. Delrio and the government entered into a plea
9

agreement. ER 152, 169. Mr. Delrio agreed, inter alia, to plead guilty to
Count One of the Indictment, Possession with Intent to
Distribute Methamphetamine in violation of 21 U.S.C. §§ 841(a)(1),
(b)(1)(A)(viii); Count Three, Possession of a Firearm in Furtherance
Of a Drug Trafficking Crime in violation of 18 U.S.C. § 924(c)(1)(A)(i); and
Count 4, Felon in Possession of a Firearm and Ammunition in violation of
18 U.S.C. § 922(g). ER 153, 154.
Mr. Delrio and the government agreed that the entry of
guilty pleas would be conditional, in that Mr. Delrio reserved the right, on
appeal from the judgment, to seek review of the adverse determination of
his offer of proof regarding necessity. Thus, if Mr. Delrio prevails on
appeal, he will be allowed to withdraw his guilty pleas. ER 154, 155.
The government agreed to recommend a two-level reduction in the
applicable Sentencing Guidelines offense level, pursuant to U.S.S.G. §
3E1.1, and recommend, and if necessary, move for an additional one-level
reduction if available under that section, provided that Mr. Delrio
10

demonstrated an acceptance of responsibility for the offense. It further
agreed to move to dismiss the remaining count against Mr. Delrio. ER 155.
In the plea agreement, Mr. Delrio waived the right to appeal his
conviction, except for, inter alia, an appeal based on a claim that the guilty
plea was involuntary or on a ground regarding the offer of proof. ER 163.
The waiver of the right to attack the conviction included a waiver of his
right to a collateral attack. ER 163. Mr. Delrio also agreed to a limited
waiver of appeal of the sentence as long as the total term of imprisonment
did not exceed 235 months. ER 164.
At the change of plea hearing, Mr. Delrio pleaded guilty to Counts
One, Three, and Four of the Indictment. ER 106, 141-142. The district court
accepted the pleas. ER 106, 143.

E.

The Presentence Report and the Parties’ Sentencing Positions.
1.

The Office of Probation’s Presentence Report

In advising the district court as to Mr. Delrio’s appropriate sentence,
11

Probation filed a Pre Plea Report, a Presentence Report, and an addendum.
ER 288, 292; PSRs 2, 3, 23. Ultimately, the Office of Probation recommended
a 248 -month term of incarceration and 5 years of supervised release. ER 99.
This recommendation was based on following calculations:
Base Offense Level:
Guideline: § 2d1.1

38

Adjusted Offense Level

38

Acceptance of Responsibility

-3

Total Offense Level

35

Criminal History Category

II

Sentencing Options:
Guideline Sentence 188 to 235 Months (plus mandatory 60
months pursuant to 21 U.S.C. § 924(c))
Supervised Release

5 Years [Count 1]
2 to 5 Years [Count 3]
1 to 3 Years [Count 4]

PSRs 6.
Mr. Delrio’s Criminal History Category was based on a record that
12

included a 1992 misdemeanor conviction for receiving stolen goods, 1992
convictions for various weapons’

charges and the sale of

methamphetamine, a 1993 misdemeanor conviction for assault on a
custodial officer, a 1995 conviction for the sale/transportation of a
controlled substance, a 1996 conviction for taking a vehicle without
consent, and a 2003 conviction for car jacking. PSRs 14.
2.

The Government’s Sentencing Position

In taking a sentencing position, the government did not object to
Probation’s calculations of Mr. Delrio’s offense level or criminal history
category. ER 99. Consequently, the government recommended that Mr.
Delrio be sentenced to a total of 248 months of imprisonment, to be
followed by five years of supervised release. ER 99. The government
further argued that Mr. Delrio should not be allowed a minor role
adjustment. ER 102.
3.

Mr. Delrio’s Sentencing Position

Mr. Delrio filed a sentencing position requesting a sentence of 15
13

years. ER 25. In making this request, Mr. Delrio discussed the individual
who in fact had arranged the drug sale for which Mr. Delrio was charged
in the instant matter – Primo, a.k.a. Ricardo Rodriguez-Perez, as well as
other involved individuals, Maricela Arreola and Ernesto Beltran-Araujo.
ER 29, 47-49, 60, 67, 75, 83. These individuals were prosecuted in Florida.
ER 47. The documents filed in Florida showed Mr. Delrio’s minimal
involvement with the drug transaction as a mere courier. ER 51-52. On that
basis, Mr. Delrio requested a minor-role adjustment. ER 54-57.

F.

Sentencing and the Notice of Appeal

Mr. Delrio’s sentencing hearing took place on July 8, 2019. ER 29. The
government continued to oppose Mr. Delrio’s request for a minor-role
reduction. ER 33.
The district court denied Mr. Delrio’s request for a minor-role
reduction. ER 36-37. The court adopted the factual findings and the
guideline application as calculated by Probation. ER 38. It then imposed
14

a180-month term of incarceration on Count One to run concurrently with
the 120-month term imposed on Count Four, and 60 months of
incarceration on Court Three to be served consecutively with the terms for
Count One and Four. ER 42. Thus, the district court imposed a total term
of incarceration of 240 months. ER 1, 42. The district court imposed 5 years
of supervised release on Counts One and Three and 3 years on Count 4, all
of which were to run concurrently. ER 1, 41-43.
On the government’s motion, the district court dismissed the
remaining count against Mr. Delrio . ER 44.

G.

The Appeal

On July 12, 2019, Mr. Delrio filed a timely notice of appeal. ER 26.
On November 2, 2020, the Ninth Circuit Court of Appeals issued a
memorandum affirming Mr. Delrio’s conviction and judgement.

15

REASONS FOR GRANTING THE WRIT

I.

THE DECISION IN THIS MATTER MAGNIFIES THE
CONFLICT AMONG THE CIRCUITS REGARDING THE
WEIGHT A COURT CAN GIVE A DEFENDANT’S STATUS
AS A COURIER WHEN DETERMINING A MITIGATINGROLE ADJUSTMENT.

The Court of Appeals affirmed the denial of Mr. Delrio’s request for
a decrease in his offense level under the United States Sentence Guidelines.
The relevant guideline states:
Based on the defendant's role in the offense,
decrease the offense level as follows:
(a) If the defendant was a minimal participant in
any criminal activity, decrease by 4 levels.
(b) If the defendant was a minor participant in any
criminal activity, decrease by 2 levels.
In cases falling between (a) and (b), decrease by 3
levels.
U.S.S.G. § 3B1.2.
16

The commentary to U.S.S.G. § 3B1.2 instructs that the determination
whether to apply a mitigating-role reduction is based on the totality of the
circumstances and involves a determination that is heavily dependent upon
the facts of the particular case. U.S.S.G. § 3B1.2, comm. n. 3(C). However,
in reports to Congress, the Sentencing Commission identifies the likely
participants in drug trafficking organizations and in so doing ranks them
in terms of culpability. See U.S. Sentencing Comm'n, Report to Congress:
Mandatory Minimum Penalties in the Federal Criminal Justice System, Ch. 8 pp.
166-167 (Oct. 2011); U.S. Sentencing Comm'n, Report to the Congress: Cocaine
and Federal Sentencing Policy, Ch 2, pp. 17-18 (May 2007).
In its 2011 report to congress, the Commission ranked the roles of
drug trafficking participants in order of decreasing culpability as follows:
•

High-Level Suppler/Importer: Imports or supplies large
quantities of drugs (one kilogram or more); is near the top of
the distribution chain; has ownership interest in the drugs;
usually supplies drugs to other drug distributors and generally
17

does not deal in retail amounts.
•

Organizer/Leader: Organizes or leads a drug distribution
organization; has the largest share of the profits; possesses the
most decision-making authority.

•

Grower/Manufacturer: Cultivates or manufactures a controlled
substance and is the principal owner of the drugs.

•

Wholesaler: Sells more than retail/user-level quantities (more
than one ounce) in a single transaction, purchases two or more
ounces in a single transaction, or possesses two ounces or more
on a single occasion, or sells any amount to another dealer for
resale.

•

Manager/Supervisor: Takes instruction from higher-level
individual and manages a significant portion of drug business
or supervises at least one other coparticipant but has limited
authority.

•

Street-Level Dealer: Distributes retail quantities (less than one
18

ounce) directly to users.
•

Broker/Steerer: Arranges for drug sales by directing potential
buyers to potential sellers.

•

Courier: Transports or carries drugs using a vehicle or other
equipment.

•

Mule: Transports or carries drugs internally or on his or her
person.

U.S. Sentencing Comm'n, Report to Congress: Mandatory Minimum Penalties
in the Federal Criminal Justice System, Ch. 8, pp. 165-167 (Oct. 2011),
emphasis added.
This ranking lists couriers as the second to the last in terms of
culpability. A comment to U.S.S.G. § 3B1.2 further underscores the limited
culpability of a drug trafficking courier:
The fact that a defendant performs an essential or
indispensable role in the criminal activity is not
determinative. Such a defendant may receive an
adjustment under this guideline if he or she is
substantially less culpable than the average
19

participant in the criminal activity.
U.S.S.G. 3B1.2, comment. n. 3(C).
Although the Sentencing Commission has opined that a drug
couriers is one of the very least culpable roles in a drug trafficking
operation, some circuits adhere more closely the Sentencing Commission’s
commentary and rankings than do others.
The Ninth Circuit Court of Appeals’ decision in the instant matter is
a clear example of a decision that sorely tests the directives of the
Sentencing Commission. The district court in the instant matter based its
denial of the mitigating-role request on the indispensable nature of Mr.
Delrio’s actions as a courier, and, as found by the Ninth Circuit, justified
that heavy reliance based on the manner in which Mr. Delrio performed his
duties as a courier. ER 16, 54, 159-161; App 2a. Thus, the Court of Appeals
in this matter determined that a courier’s indispensability to a drug
trafficking organization makes the courier highly culpable in terms of a
mitigating-role adjustment.
20

Other Circuits have made similar determinations in which the mere
fact that a defendant acted as a courier was heavily weighted in the
calculation of a mitigating-role adjustment. United States v. Bello-Sanchez,
872 F.3d 260, 262, 264 (5th Cir. 2017) citing United States v. Escobar, 866 F.3d
333, 335-37 (5th Cir. 2017) for the holding that “. . .error lies only where the
defendant's ‘integral role’ is treated as a per se bar to a mitigating-role
adjustment and not where it is treated as a factor, even a heavily weighted
one, in a broader calculus. “ United States v. Torres-Hernandez, 843 F.3d 203,
209 (5th Cir. 2016). To similar effect see, United States v. Sanchez-Villarreal,
857 F.3d 714, 722 (5th Cir. 2017).
In great contrast to the decision in this matter and the decisions of the
Fifth Circuit, the Third Circuit does not heavily weigh the indispensability
of a drug couriers in a determining mitigating-role adjustment. United
States v. Rodriguez, 342 F.3d 296, 300 (3d Cir. 2003) Thus, the Third Circuit
adheres more closely to the commentary of the relevant sentencing
guideline.
21

The split among the circuits on the issue of a mitigating-role
adjustment is an important one. For certain courts to weight the mere fact
that a defendant is a courier heavily in its determination of a mitigatingrole adjustment while others do not, is a split this Court should address by
granting the instant petition.

22

II.

THE DISTRICT COURT VIOLATED U.S.S.G. § 3B1.2 AND

MR. DEL RIO’S DUE PROCESS RIGHT TO BE SENTENCED
ON ACCURATE INFORMATION WHEN IT DENIED HIM
A MITIGATING ROLE ADJUSTMENT BASED SIMPLY ON
SPECULATIVE INFERENCES.
Mr. Delrio acted as a courier in the single transaction for which he
was incarcerated. The sum total of his involvement was little more than
twenty-four hours. Despite the discrete and limited nature of Mr. Delrio’s
actions, the district court concluded that the very fact he had been
entrusted to deliver the drugs elevated his culpability sufficiently to
support a denial of a mitigating-role adjustment.
The Ninth Circuit Court of Appeals decided that the district court, “.
. . reasonably concluded that ‘defendant occupied a sufficiently high
position of trust within the organization to bear sole responsibility for
delivering multiple kilograms of methamphetamine and fentanyl,’ and,
therefore, had some understanding of the scope or structure of the
23

scheme.” App. 4a. On this basis the Court of Appeals affirmed Mr. Delrio’s
conviction.
A drug courier is by definition a person who has been entrusted to
deliver drugs. To say that a person is more than a mere courier and thus
does not warrant a mitigating role adjustment because s/he has been
entrusted to deliver drugs relies on little more than circular reasoning to
achieve a predetermined result.

In the instant matter, this circular

reasoning was then used to speculate that, because Mr. Delrio was
“trusted” he “had some understanding of the scope or structure of the
scheme.”
Courts in other circuits have relied on this “trust reasoning” to
speculate that the courier-defendant had greater participation than the
record actually supported. See United States v. Gómez-Encarnación, 885 F.3d
52, 57 (1st Cir. 2018); United States v. Gonzalez, 534 F.3d 613, 617 (7th Cir.
2008) By contrast, other circuits, have rejected this type of speculation. See
United States v. Delgado-Lopez, 974 F.3d 1188, 1193-1194 (10th Cir. 2020)
24

wherein the reviewing court determined that the district court had
impermissibly speculated about the courier’s culpability based on the
financial wisdom of becoming a drug courier.; United States v. Cruickshank,
837 F.3d 1182, 1194 (11th Cir. 2016) remanding the matter where the court
based its denial of a mitigating-role adjustment through speculation based
on the drug quantity at issue.
There is clear a split among the circuits as to the use of speculative
inferences in determining a mitigating-role adjustment. This alone is a basis
for the grant of the instant petition. An additional basis, however, is that
the use of speculative inferences in this context is a violation of due process.
Despite the wide ranging nature of information allowed at
sentencing, due process provides some limitation in that it requires a
defendant be sentenced on the basis of accurate information. United States
v. Wilson, 900 F.2d 1350, 1353 (9th Cir. 1990) citing Townsend v. Burke, 334
U.S. 736, 741 (1948). This accuracy requirement connotes information that
is reliable. United States v. Littlesun, 444 F.3d 1196, 1199 (9th Cir. 2006);
25

United States v. Berry, 258 F.3d 971, 976 (9th Cir. 2001). To similar effect, see
U.S.S.G. § 6A1.3(a) which requires that information used in sentencing have
"sufficient indicia of reliability to support its probable accuracy."
A defendant cannot be deprived of liberty based upon mere
speculation. United States v. Berry, 553 F.3d 273, 284 (3d Cir. 2009); United
States v. Kluball, 843 F.3d 716, 719 (7th Cir. 2016) holding that information is
not reliable where it is based on speculation or unfounded allegations. To
satisfy due process, facts that are considered at sentencing, as a general
matter, must be proved by a preponderance of the evidence. Berry, 553 F.3d
273, 284 citing United States v. Watts, 519 U.S. 148, 156 (1997). See also
United States v. Alvarado-Martinez, 556 F.3d 732, 734-35 (9th Cir. 2009).
The district court violates a defendant's due process rights when it
relies on materially false or unreliable information at sentencing. See United
States v. Tucker, 404 U.S. 443, 446 (1972); United States v. Sand, 541 F.2d 1370,
1378 (9th Cir.1976). To establish the violation of his due process right to be
sentenced based on accurate information, a defendant must show that the
26

asserted allegations were (1) false or unreliable, and (2) demonstrably made
the basis for the sentence. United States v. McGowan, 668 F.3d 601, 606 (9th
Cir. 2012) citing United States v. Vanderwerfhorst, 576 F.3d 929, 935-936 (9th
Cir. 2009) and United States v. Ibarra, 737 F.2d 825, 827 (9th Cir. 1984).
The inference on which the district court denied Mr. Delrio a
mitigating-role adjustment was based, not on facts, but on the district
court’s speculative assertion. The Ninth Circuit’s decision thus violates due
process and this violation warrants the grant of the instant petition for a
writ of certiorari.

27

CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should
be granted.

Dated: January 27, 2021

Respectfully submitted,

Andrea Renee St. Julian
Counsel of Record for Petitioner,
SALVADOR DELRIO

28

APPENDICES

APPENDIX A

App. 1a

Case: 19-50230, 11/02/2020, ID: 11878583, DktEntry: 33-1, Page 1 of 5

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
NOV 2 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

19-50230

D.C. No.
2:18-cr-00686-PA-1

v.
SALVADOR DELRIO,

MEMORANDUM*

Defendants-Appellants.
Appeal from the United States District Court
for the Central District of California
Percy Anderson., District Judge, Presiding
Argued and Submitted October 14, 2020
Pasadena, California
Before: GOULD and LEE, Circuit Judges, and KORMAN,** District Judge.
Salvador Delrio appeals from the district court’s preclusion of a necessity
defense at trial and the sentence resulting from his conditional guilty plea. We have
jurisdiction under 28 U.S.C. § 1291 and 18 U.S.C. § 3742(a). We affirm.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Edward R. Korman, United States District Judge for
the Eastern District of New York, sitting by designation.
App. 2a

Case: 19-50230, 11/02/2020, ID: 11878583, DktEntry: 33-1, Page 2 of 5

1. Necessity defense: We review de novo a district judge’s preclusion of a
necessity defense. See United States v. Barnes, 895 F.3d 1194, 1195 (9th Cir. 2018).
To present a necessity defense, a defendant must first establish that a reasonable jury
could conclude: “(1) that he or she was faced with a choice of evils and chose the
lesser; (2) that he or she acted to prevent imminent harm; (3) that he reasonably
anticipated a causal relation between his conduct and the harm to be avoided; and
(4) that there were no other legal alternatives to violating the law.” United States v.
Arellano-Rivera, 244 F.3d 119, 1125-26 (9th Cir. 2001) (citing United States v.
Aguilar, 883 F.2d 662, 693 (9th Cir. 1989)). But when a “defendant’s offer of proof
is deficient with regard to any of the four elements, the district judge must grant the
motion to preclude evidence of necessity.” Id. at 1125-26 (emphasis added).
The district did not err in barring Delrio’s necessity defense because he never
faced a choice of evils. Instead, a friend invited him to participate in a drug
trafficking scheme in exchange for money. He accepted, and only later decided that
his actions could “possibly” save an unidentified third-party’s life. Indeed, nobody
told Delrio that his actions could spare that individual’s life. Moreover, Delrio could
not establish imminence of harm or a causal connection between his acts and the
avoidance of a greater evil.
2. Minor role adjustment: The district court did not err in denying Delrio’s
request for a minor-role adjustment. In evaluating a request for a minor-role

App. 3a

Case: 19-50230, 11/02/2020, ID: 11878583, DktEntry: 33-1, Page 3 of 5

adjustment, a court must consider the non-exhaustive factors outlined in U.S.S.G. §
3B1.2 cmt. n.3(C). We, however, do not require the district judge to “tick off each
of the factors to show that it has considered them.” United States v. Carty, 520 F.3d
984, 992 (9th Cir. 2008). Rather, absent evidence to the contrary, we “assume the
district judge knew the law and understood his or her obligation to consider all of
the sentencing factors.” United States v. Diaz, 884 F.3d 911, 916 (9th Cir. 2018).
The district court cited and applied the correct Guidelines factors.

For

example, it discussed Delrio’s limited negotiating power in juxtaposition with his
substantial autonomy.

It reasonably concluded that “defendant occupied a

sufficiently high position of trust within the organization to bear sole responsibility
for delivering multiple kilograms of methamphetamine and fentanyl,” and, therefore,
had some understanding of the scope or structure of the scheme.
In refusing to grant minor role adjustment, the district court did not rely solely
on Delrio’s essential role.

Instead, it gave significant weight to the level of

autonomy that Delrio exercised, the high quantity of drugs he trafficked, and his
possession of a firearm. According to Delrio, the suppliers detained a previous
courier because they did not trust him with this shipment. The district court thus did
not err in considering the suppliers’ apparent trust in Delrio. Moreover, the district
court could have considered these factors as inconsistent with a minor role
adjustment. See United States v. Davis, 36 F.3d 1424, 1436 (9th Cir. 1994) (a district

App. 4a

Case: 19-50230, 11/02/2020, ID: 11878583, DktEntry: 33-1, Page 4 of 5

court appropriately “denied downward adjustments to defendants who were couriers
where some additional factors [like the amount of drugs] showed that they were not
a minor or minimal [participant]”); United States v. Rodriguez-Castro, 641 F.3d
1189 (9th Cir. 2011) (a district court did not abuse its discretion when “justifiably
skeptical that [the] amount of drugs [in question] would not be entrusted to a minor
player”).
3. Quantity of drugs: The district court did not err in determining that Delrio
knew the quantity of drugs in his possession. Under his plea bargain, Delrio
admitted that “he knew that the suitcase and duffel bag contained
methamphetamine.”
4. Procedurally and substantively unreasonable sentence: A district court
must consider the Section 3553 factors in sentencing a defendant. 18 U.S.C. §
3553(a). Delrio argues that the district court failed to adequately consider the nature
and circumstances of the offense, the need to protect the public from further crimes,
and the need to avoid unwarranted sentencing disparities.
But a district court need not “tick off” each of the factors in its explanation.
See Carty, 520 F.3d at 992. Absent contrary evidence, we accept a district court’s
statement that it reviewed and considered the submissions. See id. at 996. The
district court acknowledged having “received, read, and considered” the sentencing
memoranda and the Presentence Report.

App. 5a

Case: 19-50230, 11/02/2020, ID: 11878583, DktEntry: 33-1, Page 5 of 5

We conclude that the district court did not err by imposing a sentence on the
lower end of the Guidelines-recommended range: 240-months imprisonment. We
review a district court’s decision for an abuse of discretion in light of the totality of
the circumstances. See United States v. Amezcua-Vasquez, 567 F.3d 1050, 1055 (9th
Cir. 2009). Contrary to Delrio’s claims, the district court did consider the nature of
Delrio’s offense, his culpability, available defenses, criminal history, and the need
to avoid sentencing disparities.
AFFIRMED.

App. 6a

APPENDIX B

App. 7a

Case 2:18-cr-00686-PA Document 76 Filed 07/08/19 Page 1 of 5 Page ID #:519
United States District Court
Central District of California
UNITED STATES OF AMERICA vs.

Docket No.

CR 18-686 PA

Defendant
Salvador Delrio
True Name: Salvador Hernandez Del Rio; Also
Known As: Salvador Delrio Hernandez; Also
Known As: Salvador Del Rio Hernandez;
akas:
Moniker: Spanky

Social Security No. 9

3

2

2

(Last 4 digits)

JUDGMENT AND PROBATION/COMMITMENT ORDER

In the presence of the attorney for the government, the defendant appeared in person on this date.
COUNSEL

MONTH

DAY

YEAR

July

08

2019

Angel Navarro, CJA
(Name of Counsel)

PLEA
FINDING

X GUILTY, and the court being satisfied that there is a factual basis for the plea.

NOLO
CONTENDERE

NOT
GUILTY

There being a finding/verdict of GUILTY, defendant has been convicted as charged of the offense(s) of:
Possession with Intent to Distribute Methamphetamine in violation of 21 U.S.C. § 841(a)(1), 21 U.S.C. § 841(b)(1)(A)(viii)
as charged in Count 1 of the 4-Count Indictment
Possession of a Firearm in Furtherance of a Drug Trafficking Crime in violation of 18 U.S.C. § 924(c)(1)(A)(i) as charged
in Count 3 of the 4-Count Indictment

Prohibited Person in Possession of a Firearm and Ammunition in violation of 18 U.S.C. § 922(g), 18 U.S.C. § 924(a)(2)
as charged in Count 4 of the 4-Count Indictment
JUDGMENT The Court asked whether there was any reason why judgment should not be pronounced. Because no sufficient cause to the
AND PROB/ contrary was shown, or appeared to the Court, the Court adjudged the defendant guilty as charged and convicted and ordered
COMM
that: Pursuant to the Sentencing Reform Act of 1984, it is the judgment of the Court that the defendant, Salvador Delrio, is
ORDER
hereby committed on Counts 1, 3, and 4 of the Indictment to the custody of the Bureau of Prisons for a term of 240 months.
This term consists of 180 months on Count 1 and 120 months on Count 4 of the Indictment, to be served concurrently with each
other, and 60 months on Count 3, to be served consecutively to Counts 1 and 4.

Upon release from imprisonment, the defendant shall be placed on supervised release for a term of 5 years. This term
consists of 5 years on each of Counts 1 and 3 and 3 years on Count 4 of the Indictment, all such terms to run concurrently
under the following terms and conditions:
1. The defendant shall comply with the rules and regulations of the United States Probation & Pretrial Services
Office and General Order 18-10.
2. The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall submit to
one drug test within 15 days of release from custody and at least two periodic drug tests thereafter, not to
exceed eight tests per month, as directed by the Probation Officer.
3. During the period of community supervision, the defendant shall pay the special assessment in accordance
with this judgment's orders pertaining to such payment.

CR-104 (docx 10/18)

JUDGMENT & PROBATION/COMMITMENT ORDER

App. 8a

Page 1 of 5

Case 2:18-cr-00686-PA Document 76 Filed 07/08/19 Page 2 of 5 Page ID #:520
USA vs.

SALVADOR DELRIO

Docket No.:

CR 18-686 PA

4. When not employed or excused by the Probation Officer for schooling, training, or other acceptable reasons,
the defendant shall perform 20 hours of community service per week as directed by the Probation & Pretrial
Services Office.
5. The defendant shall cooperate in the collection of a DNA sample from the defendant.
6. The defendant shall submit his person, property, house, residence, vehicle, papers, computers [as defined in
18 U.S.C. § 1030(e)(1)], cell phones, other electronic communications or data storage devices or media,
office, or other areas under the defendant’s control, to a search conducted by a United States Probation
Officer or law enforcement officer. Failure to submit to a search may be grounds for revocation. The
defendant shall warn any other occupants that the premises may be subject to searches pursuant to this
condition. Any search pursuant to this condition will be conducted at a reasonable time and in a reasonable
manner upon reasonable suspicion that the defendant has violated a condition of his supervision and that the
areas to be searched contain evidence of this violation.
It is ordered that the defendant shall pay to the United States a special assessment of $300, which is due immediately.
Any unpaid balance shall be due during the period of imprisonment, at the rate of not less than $25 per quarter, and
pursuant to the Bureau of Prisons' Inmate Financial Responsibility Program.
Pursuant to Guideline § 5E1.2(a), all fines are waived as the Court finds that the defendant has established that he is
unable to pay and is not likely to become able to pay any fine.
The Court recommends that the defendant be incarcerated in a Southern California facility.
The Court further recommends that the Bureau of Prisons consider the defendant for placement in its 500-hour
Residential Drug Abuse Program.
On Government's motion, all remaining counts are ORDERED dismissed.
Defendant advised of his right to appeal.
In addition to the special conditions of supervision imposed above, it is hereby ordered that the Standard Conditions of Probation and
Supervised Release within this judgment be imposed. The Court may change the conditions of supervision, reduce or extend the period of
supervision, and at any time during the supervision period or within the maximum period permitted by law, may issue a warrant and revoke
supervision for a violation occurring during the supervision period.

July 08, 2019
Date

U. S. District Judge/Magistrate Judge

It is ordered that the Clerk deliver a copy of this Judgment and Probation/Commitment Order to the U.S. Marshal or other qualified officer.
Clerk, U.S. District Court

July 08, 2019

CR-104 (docx 10/18)

By

/s/ Kamilla Sali-Suleyman

JUDGMENT & PROBATION/COMMITMENT ORDER

App. 9a

Page 2 of 5

Case 2:18-cr-00686-PA Document 76 Filed 07/08/19 Page 3 of 5 Page ID #:521
USA vs.

SALVADOR DELRIO
Filed Date

Docket No.:

CR 18-686 PA

Deputy Clerk

The defendant must comply with the standard conditions that have been adopted by this court (set forth below).
STANDARD CONDITIONS OF PROBATION AND SUPERVISED RELEASE
While the defendant is on probation or supervised release pursuant to this judgment:
1.
2.

3.
4.
5.
6.

7.

8.

The defendant must not commit another federal, state, or local crime;
The defendant must report to the probation office in the federal
judicial district of residence within 72 hours of imposition of a
sentence of probation or release from imprisonment, unless
otherwise directed by the probation officer;
The defendant must report to the probation office as instructed by the
court or probation officer;
The defendant must not knowingly leave the judicial district without
first receiving the permission of the court or probation officer;
The defendant must answer truthfully the inquiries of the probation
officer, unless legitimately asserting his or her Fifth Amendment
right against self-incrimination as to new criminal conduct;
The defendant must reside at a location approved by the probation
officer and must notify the probation officer at least 10 days before
any anticipated change or within 72 hours of an unanticipated change
in residence or persons living in defendant’s residence;
The defendant must permit the probation officer to contact him or her
at any time at home or elsewhere and must permit confiscation of
any contraband prohibited by law or the terms of supervision and
observed in plain view by the probation officer;
The defendant must work at a lawful occupation unless excused by
the probation officer for schooling, training, or other acceptable
reasons and must notify the probation officer at least ten days before
any change in employment or within 72 hours of an unanticipated
change;

CR-104 (docx 10/18)

9.

10.

11.
12.
13.
14.

15.

The defendant must not knowingly associate with any persons
engaged in criminal activity and must not knowingly associate with
any person convicted of a felony unless granted permission to do so
by the probation officer. This condition will not apply to intimate
family members, unless the court has completed an individualized
review and has determined that the restriction is necessary for
protection of the community or rehabilitation;
The defendant must refrain from excessive use of alcohol and must
not purchase, possess, use, distribute, or administer any narcotic or
other controlled substance, or any paraphernalia related to such
substances, except as prescribed by a physician;
The defendant must notify the probation officer within 72 hours of
being arrested or questioned by a law enforcement officer;
For felony cases, the defendant must not possess a firearm,
ammunition, destructive device, or any other dangerous weapon;
The defendant must not act or enter into any agreement with a law
enforcement agency to act as an informant or source without the
permission of the court;
As directed by the probation officer, the defendant must notify
specific persons and organizations of specific risks posed by the
defendant to those persons and organizations and must permit the
probation officer to confirm the defendant’s compliance with such
requirement and to make such notifications;
The defendant must follow the instructions of the probation officer
to implement the orders of the court, afford adequate deterrence from
criminal conduct, protect the public from further crimes of the
defendant; and provide the defendant with needed educational or
vocational training, medical care, or other correctional treatment in
the most effective manner.

JUDGMENT & PROBATION/COMMITMENT ORDER

App. 10a

Page 3 of 5

Case 2:18-cr-00686-PA Document 76 Filed 07/08/19 Page 4 of 5 Page ID #:522
USA vs.

SALVADOR DELRIO

Docket No.:

CR 18-686 PA

The defendant must also comply with the following special conditions (set forth below).
STATUTORY PROVISIONS PERTAINING TO PAYMENT AND COLLECTION OF FINANCIAL SANCTIONS
The defendant must pay interest on a fine or restitution of more than $2,500, unless the court waives interest or unless the fine or
restitution is paid in full before the fifteenth (15th) day after the date of the judgment under 18 U.S.C. § 3612(f)(1). Payments may be subject
to penalties for default and delinquency under 18 U.S.C. § 3612(g). Interest and penalties pertaining to restitution, however, are not applicable
for offenses completed before April 24, 1996.
If all or any portion of a fine or restitution ordered remains unpaid after the termination of supervision, the defendant must pay the
balance as directed by the United States Attorney’s Office. 18 U.S.C. § 3613.
The defendant must notify the United States Attorney within thirty (30) days of any change in the defendant’s mailing address or
residence address until all fines, restitution, costs, and special assessments are paid in full. 18 U.S.C. § 3612(b)(l)(F).
The defendant must notify the Court (through the Probation Office) and the United States Attorney of any material change in the
defendant’s economic circumstances that might affect the defendant’s ability to pay a fine or restitution, as required by 18 U.S.C. § 3664(k).
The Court may also accept such notification from the government or the victim, and may, on its own motion or that of a party or the victim,
adjust the manner of payment of a fine or restitution under 18 U.S.C. § 3664(k). See also 18 U.S.C. § 3572(d)(3) and for probation 18 U.S.C.
§ 3563(a)(7).
Payments will be applied in the following order:
1. Special assessments under 18 U.S.C. § 3013;
2. Restitution, in this sequence (under 18 U.S.C. § 3664(i), all non-federal victims must be paid before the United
States is paid):
Non-federal victims (individual and corporate),
Providers of compensation to non-federal victims,
The United States as victim;
3. Fine;
4. Community restitution, under 18 U.S.C. § 3663(c); and
5. Other penalties and costs.
CONDITIONS OF PROBATION AND SUPERVISED RELEASE PERTAINING TO FINANCIAL SANCTIONS
As directed by the Probation Officer, the defendant must provide to the Probation Officer: (1) a signed release authorizing credit
report inquiries; (2) federal and state income tax returns or a signed release authorizing their disclosure and (3) an accurate financial statement,
with supporting documentation as to all assets, income and expenses of the defendant. In addition, the defendant must not apply for any loan
or open any line of credit without prior approval of the Probation Officer.
The defendant must maintain one personal checking account. All of defendant’s income, “monetary gains,” or other pecuniary
proceeds must be deposited into this account, which must be used for payment of all personal expenses. Records of all other bank accounts,
including any business accounts, must be disclosed to the Probation Officer upon request.
The defendant must not transfer, sell, give away, or otherwise convey any asset with a fair market value in excess of $500 without
approval of the Probation Officer until all financial obligations imposed by the Court have been satisfied in full.
These conditions are in addition to any other conditions imposed by this judgment.

CR-104 (docx 10/18)

JUDGMENT & PROBATION/COMMITMENT ORDER

App. 11a

Page 4 of 5

Case 2:18-cr-00686-PA Document 76 Filed 07/08/19 Page 5 of 5 Page ID #:523
USA vs.

SALVADOR DELRIO

Docket No.:

CR 18-686 PA

RETURN
I have executed the within Judgment and Commitment as follows:
Defendant delivered on

to

Defendant noted on appeal on
Defendant released on
Mandate issued on
Defendant’s appeal determined on
Defendant delivered on
to
at
the institution designated by the Bureau of Prisons, with a certified copy of the within Judgment and Commitment.
United States Marshal

By
Date

Deputy Marshal

CERTIFICATE
I hereby attest and certify this date that the foregoing document is a full, true and correct copy of the original on file in my office, and in my
legal custody.
Clerk, U.S. District Court

By
Filed Date

Deputy Clerk

FOR U.S. PROBATION OFFICE USE ONLY

Upon a finding of violation of probation or supervised release, I understand that the court may (1) revoke supervision, (2) extend the term of
supervision, and/or (3) modify the conditions of supervision.
These conditions have been read to me. I fully understand the conditions and have been provided a copy of them.

(Signed)

CR-104 (docx 10/18)

Defendant

Date

U. S. Probation Officer/Designated Witness

Date

JUDGMENT & PROBATION/COMMITMENT ORDER

App. 12a

Page 5 of 5

